No. 20-366

 

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, e al.,
Appellants,
Vv.

STATE OF NEW YORK, et al.,
Appellees.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

AMICUS CURIAE BRIEF OF THE STATE OF CALIFORNIA,
THE CALIFORNIA CITIZENS REDISTRICTING COMMISSION,
THE COUNTY OF LOS ANGELES, THE CITIES OF LONG
BEACH, LOS ANGELES, AND OAKLAND, AND THE LOS
ANGELES UNIFIED SCHOOL DISTRICT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,583 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020.

Colin Casey i

Wilson-Epes Printing Co., Inc.
